                                                   United States Department of Justice
                                                       United States Attorney’s Office
                                                                  District of Minnesota




                                                         News Release
B. Todd Jones,
United States Attorney

Jeanne F. Cooney
Director of Community Relations
(612) 664-5611
email: jeanne.cooney@usdoj.gov


FOR IMMEDIATE RELEASE
Friday, June 14, 2013
http://www.justice.gov/usao/mn
Twitter @ DMNnews
http://www.facebook.com/usaomn



                     Four individuals plead guilty to
                conspiring to commit Social Security fraud
    MINNEAPOLIS—Earlier today in federal court, a 50-year-old St. Paul woman pleaded
guilty for her role in a conspiracy to defraud the Social Security Administration (“SSA”).
Dianne Josephine Chess specifically pleaded guilty to one count of conspiracy to commit Social
Security fraud. Chess, who was indicted along with three co-defendants on November 14, 2012,
entered her plea before United States District Court Chief Judge Michael J. Davis.

    From 2001 through June 2010, Chess was employed as a service representative at a SSA
branch office in St. Paul. Her responsibilities included inputting into a computerized data
system information provided by applicants seeking Social Security numbers. Based on that
information, the Commissioner of Social Security would assign Social Security account
numbers and issue Social Security cards to eligible applicants. Chess admitted entering false
information into the SSA’s computer system and processing applications based on the false
information so her co-conspirators would receive Social Security account numbers and cards.

    On March 11, 2013, Victor Ray Holloway, age 52, of Richfield, pleaded guilty to one count
of conspiracy and one count of theft of public funds in connection to this scheme. In his plea
agreement, Holloway, also known as Victor Young, admitted that from 2001 through June
2010, he conspired with Chess and others to deceive the SSA. In addition, Holloway admitted
that on June 13, 2008, he used the fraudulently obtained Social Security account number
assigned to Victor Young while applying for a Minnesota identification card, and that from
2002 through October 2012, he embezzled approximately $77,318 in unentitled Supplemental
Security Income (“SSI”) disability benefits.

    On January 23, 2013, Larhea Lynn Nakao, age 34, of Brooklyn Park, pleaded guilty to one
count of use of a false Social Security number and one count of theft of public funds. In her
plea agreement, Nakao, also known as Larea Holloway, admitted that in July 2008, Victor
Holloway provided her a fraudulently obtained Social Security card. Nakao also admitted that
on October 24, 2010, she used that false Social Security number while applying for
unemployment benefits. Moreover, from May 8, 2009, through October 2012, she failed to
disclose on her Initial Information Sheet to the Metropolitan Council Housing &
Redevelopment Authority that she was earning wages. As a result, she obtained $16,332 in
Section 8 housing assistance payments from the U.S. Department of Housing and Urban
Development (“HUD”) to which she was not entitled.

    On January 18, 2013, Angela Grace Hinkle, age 47, of Lewisville, Texas, pleaded guilty to
one count of use of a false Social Security number. In her plea agreement, Hinkle, also known
as Angela Grace Holloway, admitted that in June 2008, Victor Holloway provided her with a
fraudulent Social Security card. In addition, Hinkle admitted that on June 21, 2008, she used
that Social Security number while applying for a Minnesota identification card.

   For their crimes, the four defendants face a potential maximum penalty of five years on
each count. Judge Davis will determine their sentences at future hearings, yet to be scheduled.

   This case is the result of an investigation by the SSA-Office of Inspector General and the
HUD-Office of Inspector General. It is being prosecuted by Assistant U.S. Attorney Andrew
Dunne.

                                                ###
